CERTIFICATE OF COMPLIANCE
No. 20-843
New York State Rifle & Pistol Association, Inc. v. Bruen
As required by Supreme Court Rule 33.1(h), I certify that the brief for
amici curiae Citizens Committee for the Right to Keep and Bear Arms
contains 5,984 words, excluding the parts of the brief that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on July 19, 2021

/s/ Stephen M. Duvernay
Stephen M. Duvernay
Counsel for Amicus Curiae

